RULE 29 DECLARATION OF SERVICE
I, Kannha Bounchanh (Petitioner), declare that on this date, April 10,
2021, as required by Supreme Court Rule 291 have served the enclosed
my PETITION FOR REHEARING A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by
certified mail or by delivery to a third-party commercial carrier for
delivery within 3 calendar days, and/or also serve and send via email
due to COVID19 pandemic and public health crisis. The names and
address of those served are as follows:
1. Sarah K. Morehead, U.S. Attorney, U.S. Attorney Office
700 Stewart Street, Suite 5220, Seattle, WA 98101
email: sarah.morehead@usdoj.gov; who represents EEOC and its
respondents
2. Edward E. Younglove, III, Attorney, Attorney at Law
1800 Cooper Point Rd.,SW, Bldg 16, P.O.Box 7846, Olympia, WA
98502; email: edy@ylclaw.c-om; who represents
AFSCME Union and its employees or respondents.
5

•

3. Elizabeth B. Prelogar and Merrick Garland, Solicitor General of the
United States, Room 5616, Dept, of Justice, 950 Pennsylvania Avenue,

N.W., Washington, DC 20530-0001 to comply with U.S.C.2403(a) and
(b); U.S.C. 2403&451; 202- 514-2217
4. Bob Ferguson, Washington State's Attorney General, 1125
Washington Street, SE, POBox 40100, Olympia, WA 98501; 360-7536200
5. Peter B. Gonick, Washington State’s Attorney General Office(AGO),
1125 Washington Street, SE, POBox 40100, Olympia, WA 98501; who
represents HCA, DSHS, WSHRC and AGO and their employees or
respondents; 360-753-6245
6. Governor Jay Inslee, Governor of Washington State, Office of the
Governor, POBox 40002, Olympia, WA 98504-0002

Executed on April 10,2021
Kannha Bounchanh
Petitioner, Prose Litigant
117 N. Tacoma Avenue Apt.803
Tacoma, WA 98403
(253) 272-0905

